                                           fly703 0 0 0 8
                            Closeout-of


   In 1996, we learned from the subject's university that the subject' had
misrepresented his publication record in his N S F proposal2 by listing published
papers that had not been published and, in most cases, did not exist. In the
course of the university's investigation, an allegation of data fabrication was
made. The subject left the university before it could finish its investigation, so
we completed the investigation. We concluded the subject committed
misconduct in falsiwng publications and fabricating data, and we
recommended a finding to NSF's Deputy Director. Our investigation report and
NSF's Deputy Director's letter reflecting his decision constitute the closeout for
this case.


cc: Investigations, IG




                                 Page 1 of 1                               M97-08
                   .-   ;   NATIONAL SCIENCE FOUNDATIO?
                        7




                                4201 .WILSON BOULEVARD
                                                           -   f
                               ARLINGTON, VIRGINIA 22230

                                  October 2, 2000


  WFlCE OF THE
 DEPUTY DIRECTOR



CERTIFIED MAIL-RETURN RECEIPT REOUESTED




Re:   Debarment


On August 7, 2000, the National Science Foundation (NSF) sent you
a Notice of Proposed Debarment in which NSF proposed to debar you
from directly or indirectly obtaining the benefits of Federal
research grants for a period of one year. NSF's debarment action
is baaed on your severe misconduct in science discussed in detail
in the Notice of Proposed Debarment, In that Notice, which was
delivered to you on August 14, 2000, NSF informed you that you
had a period of 30 days to respond to the proposed debarment.
NSF did not receive any response to the Notice of Proposed
Debarment on or before September 13, 2000. Accordingly, you are
debarred uritil August 7, 2001. Debarment is effective throughout
the Executive branch of the Federal Government. Debarment
precludes you from receiving Federal financial and non-financial
assistance and benefits under nonprocurement Federal programs and
activities unless an agency head or an authorized designee makes
a determination to grant an exception in accordance with 45 CFR
620.215. Nonprocurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance,
loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements. In addition, you are
prohibited from receiving any Federal contracts or approved
subcontracts under the Federal Acquisition Regulations (FAR) at
48 CFR Subpart 9.4 for the period of this debarment. 45 CFR
Section 620.110 (c).
Under NSF1s regulations, you have 30 days to submit an appeal of
this decision, in writing, to the Director of the Foundation. 45
CFR 689.8 (c)(1)(iii). Any appeal should be addressed to the
Director, National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia, 22230. (A copy of the applicable
                             - 1   NATIONAL SCIENCE FOUNDATIOC   1
                                      4201 WILSON BOULEVARD
                                     ARLINGTON. VIRGINIA 22230




       OFFICE OF THE
     ' DEPUTY DIRECTOR   '




    CERTIFIED MAIL-RETURN RECEIPT REQUESTED




    Re:    ~oticeof Misconduct in Science Determination
           and Proposed Debarment


    This letter and the attached investigative report serve as formal
    notice that the National Science Foundation (NSF) proposes to
    debar you from directly or indirectly obtaining the benefits of
    Federal research grants for a period of one year. A4person who
    is debarred will be excluded during the period.of debarment from
    Federal financial and 'non-financialassistance and benefits under
    non-procurement Federal programs and activities. See 45 CFR
    S620.110, 8620.200. In addition, you will also be prohibited
    from receiving any Federal contracts or approved subcontracts
    under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart
    9.4 for the period of this debarment. 45 CFR §620.110(c).
    Debarment of an individual is effective throughout the executive
    branch of the Federal Government.
    Reasons for Debarment
    NSF's decision to propose debarment is based upon a referral from
    our Office of Inspector General (OIG). The Foundation's
    administrative record indicates that you submitted two grant
    proposals and a progress report to the National Science
    Foundation which misrepresented the status of-yourpublication
    record. You stated that seven publications were "in pressv when
    they actually had not yet been submitted or accepted for
    publication. Specifically, these false- statements were
                                                        -
                                                            made in a
J
documents. You also submitted the Table containing the
fabricateddata to NSF on more-than one-occasion. This indicates.
a pattern of fabrication and falsification.
Debarment must be for a period commensurate with the seriousness
of the cause. 45CFR §620.320(a). For all of the above reasons,
I am proposing that you be debarred for'.oneyear.
I am also taking the following action:
     If you submit any proposal or reports to NSF within three
     years from the date of this letter, you must submit to the
     Assistant Inspector General for Scientific Integrity, Office
     of Inspector General, National Science Foundation, 4201
     Wilson Boulevard, Arlington, Virginia, 22230, a copy of the
     document, together with your certification indicating that
     to the best of your knowledge, the document does not contain
     anything that violates NSFfs Misconduct in Science and
     Engineering regulations.
     In addition, during this three year period, if you submit
     any proposal or report to NSF, you must submit a written
     assurance from your Department Chairperson or Dean
     indicating that, to the best of his or her knowledge, the
     proposal or report is accurate and does not contain any
     false representations about the publication status of any
     manuscripts or any falsified data.
Procedures Governinq Proposed ~ebarment/ScientificMisconduct
Allesations
Under our regulations, you have 30 days after receipt of this
notice to submit - - in person, in writing, or through a
representative -- information and argument in opposition to the
proposed debarment. 45 CFR §620.313(a). During this 30-day
peridd you may also review the attached Investigative Report and
submit comments or rebuttal. 45 CFR 5689.8 (c)(11, S689.1 (e).
Comments submitted'within the 30-day period will receive full
consideration and may lead to revision or withdrawal of the
Investigation Report or of the recommended disposition.
Any response should be addressed to Lawrence Rudolph, General
Counsel, National Science Foundation, 4201 Wilson Boulevard, Room
1265, Arlington, VA 22230. If you have any questions, please
contact Mr. Rudolph at (703) 292-8060. We are attaching a copy
       CONFIDENTIAL




    NSF OIG Investigation Report


         September'28, 1999


'    OIG Case Number M97030008
                          REPORT O F INVESTIGATION INTO ALLEGATIONS
                                  OF MISCONDUCT I N SCIENCE

                                                        Summars
              The Office of Inspector General (OIG) has concluded that the subject
          (1)misrepresented his publication record by listing, in proposals and an associated
          Progress Report submitted to the National Science Foundation (NSF), manuscripts
          as "inpressy'when they were not and (2) fabricated data in a proposal that he
          submitted to NSF. The Uhiversity conducted a n investigation into the
          misrepresentation allegation and concluded the subject committed misconduct in
          science. We agree with the University's conclusion. Because the subject refused to
          cooperate with the University's investigation, we investigated the data fabrication
          allegation and concluded the subject committed misconduct in science. We
          recommend that NSF:
             (a) send the subject a letter of reprimand informing him that NSF has made a
      \
                 finding of misconduct in science against him;
\\.
             @) debar the subject for a period of 1 year fkom fiqal disposition of this case;     -
             (c) require, for a period of 3 years from the final disposition of this case, the
                 subject to certlfy that any documents submitted to NSF are, to the best of his
                 knowledge, factually correct and contain no fabricated data; and
             (d) require, for a period of 3 years from the final disposition of this case, the
                subject to obtain from his supervisor a certification that, to the best of the
                supervisor's knowledge (after appropriate inquiry), any documents the
                subjects submits to NSF are accurate and contain no fabricated publications
                or data.



                       University Inquiry i n t o the Misrepresentation Allegation
              The subject1 submitted a tenure and promotion (T&P)package to the University2
          in the Fall of 1996. The Department Head @H) found discrepancies in the subject's
          publication record in that he had not listed three publications in his 1996 T&P
          packages that he had listed as "in press" on his earlier grant application4 to an
          organization.6 The DH observed that the manuscripts listed in the grant




             3   See Tab 1;these three citations are highlighted on pg. 3 of Tab 1.

             6 The                                                            .


                                                         Pg.   2
application to the organization were on a n NSF form. He then checked the subject's
1995 NSF proposal6 for publication discrepancies as well. The DH found citations
denoting these manuscripts, as well as three others, as "in press" in it, none of
which were listed in his T&P package.7
    The DH brought his concerns to the Vice Chancellor (VC) who initiated an
inquiry to examine the alleged discrepancies. The subject told the Inquiry Panel
that thehallegationagainst him was not made in good-faith and that it was an
example of persecution within the Department. The subject explained that his
listing of the three manuscripts as "in press" were typographical errors, and told the
Inquiry Panel the citations should have read "in prep." According to the
Investigation Committee report, the subject
       admitted [to the Inquiry Panel] that this was a mistake, [but] he
       claimed that it was not due to his own caielessness, but rather, the
       fault of the departmental procedure used by the administrative staff
       responsible for assembling the proposal.8
   The report noted the subject told the Inquiry Panel that he had previously
informed his NSF program manager (PM) about the "informational errors" in his
proposal:
       in addition to stating that these were typographical errors, [the
       subject] indicated that he had informed b s PM] of this error . . . . [He]
       also stated in his interview with the Inquiry Panel on March 25, 1997
       that he had informed [the PM] by telephone of the errors in early
       January, 1996, that he had corrected the errors in a CV [curriculum
       vita] sent to [the PM] in February, 1996 in response to her request for
       him to serve on a review panel in April, 1996.9
    The Inquiry Panel asked NSF whether the subject had previously informed MSF
of the "informational errors" in his proposal. We examined the proposal jacket and
interviewed the PM.10 We found the 1995 proposal jacket contained two copies of
page C-$1-the    originally submitted one, and a second one with fax header
indicating it had been sent from the subject's department to NSF on February 25,
1997, after the University notified the subject of its inquiry. On the version faxed




   7 The six questioned citations in the 1995 proposal are highlighted on pages 4-6 of Tab 1.
   8 Tab 3,pg. 2.
   9 Tab 3, pp. 6-7.
   10 The PM told us she could not recall any specific conversations with the subject or any details of
any conversations she may have had with him.
   11 Tab 4--Pg. C-8, subsection C.l titled "Publicationsin peer reviewed journals."


                                             Pg. 3
by the subject, he had marked out "in press" and had written either "in prep" or
"preparation" by the three questioned citations.
    When we reviewed the proposal, we found several instances where the subject
had listed the three questioned manuscripts, and others, as "in press" in his
proposal. The proposal has publications listed as "in press" in three sections: the
Bibliography, pp. D-1 and D-6 (two citations), the Progress Report, pg. C-8 (four
citations), and the subject's Biographical Sketch, pg. E-2 (six citations). See Tab 2.
His fax to NSF did not correct any of the citations to these manuscripts in other
parts of the proposal.
   We found evidence that the subject may have misrepresented his publication
record in multiple places in his proposal, and we found no evidence that
substantiated the subject's claim that he had notified NSF of the "informational
errors" in his proposal prior to the initiation of the University's inquiry. This
evidence, together with the multiple discrepancies the DH had noted, led the
Inquiry Panel to conclude that the University should proceed with a n investigation.



                          The Universitv's Investigation (Tab 3)
    The VC charged the investigation Committee with determining if the subject's
three citation errors constituted misconduct in science. The Committee examined
the subject's T&P package and his proposals submitted to NSF and reviewed the
citations in each of them. The Committee interviewed the DH and attempted to
interview the subject. Although the subject had provided some information to the
Inquiry Panel, he did not cooperate with the Committee and refused to provide
further information, either orally or in writing.
   After the Committee's examination of the different representations of the
supposedly same citations,l2 together with the subject's after;the-fact notification of
NSF, supposedly to correct clerical errors, it noted that
         [tlhe errors in [the subject's] list of citations do not appear to be simply
         typographical, and information the Inquiry Panel received from NSF
         did not substantiate [the subject's] claims of having informed NSF of
         these errors prior to the initiation of the IIJniversity's] inquiry in
         January of 1997. . . . The citations in question appear as "in press,
         1994" in more than one document and the formats of the citations are
         different, pre-empting the possibility that this is a typographical error
         which was carried through by photocopying or "cutting and pasting",
         by word processing, of the incorrect information.13



   12   Examples of its comparison are given in Tab 5.
   '3   Tab 3, pg.7.


                                              Pg. 4
   The Committee also identified two "analogous situations" in the subject's
Progress Report from his earlier, Presidential Young Investigator (PYI) award.14
The Committee noted the subject's claim of the manuscripts being "in press"
preceded their dates of acceptance shown by the journals, and the subject cited a
manuscript as "in press" in a journal that was different from the journal in which it
was eventually published.15
   The Committee noted that the subject's misrepresentations were not an isolated
                        I

occurrence:
        Although the progress report was not part of the allegations brought
        against [the subject], it does suggest a pattern of misrepresenting the
        status of his work. '1n this case, the manuscripts cited in the original
        [I9951 proposal as being "in press" in 1994 were updated to being "in
        press" in [the PYI Progress Report inl1995, well before the date they
        were actually submitted to the journals.


        As noted above, examination of the PYI proposal and progress reports
        provided by NSF suggested that [the subject] had a history of
        providing inaccurate information about the status of his manuscripts. 16
   The University's investigative Committee
        conclude[d] that the listing of publications as being "in press" was not
        the result of honest error and thus constitute[d] research misconduct.
        [It] consider[ed] any occurrence of research misconduct to be a serious
        breach of accepted scientiiic behavior that undermines the absolute
        necessity for trust among members of the scientific community.
        [The subject] has misrepresented his work as being complete and as
        having been peer-reviewed and accepted for publication in reputable
  '     journals. Although such a misrepresentation does not have the far-
        reaching ramifications that might arise fkom falsification of clinical
        studies, nevertheless, it:
        a) is fabricated information;
        b) casts [the subject's] publication list in a more favorable light than it
           would be if the "in press" manuscripts had been properly listed as
           "in preparation";
        c) may have influenced the reviews of his proposal and put it in a
           percentile which i) permitted it to be funded and ii) potentially
           disenfranchised other scientists competing with him for funding.17

   14 Tab 6.
   16 Tab 3, pp. 7-8.
   16 Ibid.
   17 Tab 3, pg. 9.




                                         Pg. 5
   The Committee stated that "[mlaintaining scientific integrity must be of highest
priority for [the University]," and it
         recommend[ed] that [the subject] be made aware of the seriousness of
         his actions and that appropriate steps be taken to insure that the
         actions of [the subject] do not cause further damage to the reputation
         of the university, its faculty or students. . . . We request that
         University officials take appropriate action to uphold the principles
         underlying self-governance.18           -
   The VC (the adjudicator) informed us that the University's options for possible
actions to take regarding the subject were quite limited because the subject left the
University before the conclusion of the investigation. The University issued the
subject a letter of reprimand (signed by the Provost) and placed the letter in his
permanent personnel file.19



             -      OIG's Analysis of Misrepresentation Allegation
   We reviewed the University's report and found it fair and accurate. Although
the University investigation focused on three manuscripts in the 1995 proposal, it
found that one of those three manuscripts, in addition to another manuscript, were
also falsely cited in the Progress Report for the PYI proposal. In reviewing the
materials, we found others. We present in Tabs 8, 6, and 9 a comparison of all of
the false "in press" citations that appear in the subject's NSF submissions:
   one manuscript in two sections of his PYI proposal (see Tab 8 for details);
   two manuscripts in his PYI Progress Report (see Tab 6 for details); and
   a subset of six manuscripts listed differently in three sections: of the 1995
   proposal (see Tab 9 for details), two of which were falsely cited in the PYI
   Progress Report (see above).
The subject's three NSF submissions contain 16 false citations to 7 different
manuscripts. The subject's listing of those manuscripts as "in press" did not
conform to accepted definitions of "in press,"20 nor did it even meet his own
definition of "in press," which he stated as "accepted by the journal and sent to the
printer."21 None of the manuscripts were submitted, let alone reviewed, accepted,
and sent to the journal's printer when the subject listed them as "in press."


    18 Ibid., pg. 10.
    19  Tab 7.
     20 For example of a "community"definition, see M.C. LaFollette, Stealing Into Print Fraud,
Plagiarism, and Misconduct in Scientific Publishing (Wniv. of CA Press 1992) pg. 54; and references
therein.
     21 After the University began its inquiry, the subject provided NSF with an updated publication
list and explained his definitions of "inpress" and "submitted." See Tab 10.
Furthermore, for three of those manuscripts, there is still no evidence of
publication, 4 years after they were listed as "in press."
    The subject told us that "informational errors did occur, and that it was
primarily my responsibility to catch them before any grant proposal or 'official'
documents were released by the University to any funding agency."22 He explained
that he did not seek to correct the errors in the NSF proposal because he had
spoken to the PM about tlie informational errors previously. However, it appears
most of the subject's conversations with the PM took place after the University
began its inquiry, and the subject's earliest conversation on this topic took place
between him and the PM in September 1995.23 Even if this conversation took place,
it was significantly after the subject had submitted his 1991 PYI and 1995
proposals to NSF. At best, it is a n ineffectual, retroactive explanation of the
subject's actions and is in no way applicable to the false citations listed in the PYI
proposal that was managed by a different Program Director.



             OIG Investigation into Data Fabrication Allegations
    During the University's investigation, we received allegations that the subject
fabricated data in a table in the 1995 proposal. When we asked the University to
examine these allegations, it told us the subject had refused to cooperate with its
investigation, had left the University, and had taken all the laboratory notebooks
associated with his research projects with him. Thus, it was unable to conduct an
investigation into these allegations, and we conducted our own investigation.
    The subject submitted three versions of the 1995 proposal page containing Table
2; we have designated these as A, B, and C (Tab 12). Version A was part of the 1995
proposal as originally submitted in November 1994. The subject submitted versions
B and C later, and NSF program staff replaced version A with versions B and C in
the program jacket.24.25 Version A has less data than versions B and C; there are
six rows of data in Table 2 of version A, and eight rows of data in versions B and
C.26 Version B has a different explanation of what was measured than versions A
and C.27


   22  Tab 11,pg. 3.
   23 Ibid.,pg. 4.
    24 The subject claimed version B was his original and doubts the authenticity of version A
because lus former University submitted it. Irrespective of the subject's doubts on the authenticity
of version A, the subject agrees that he created versions B and C, and these versions contain all the
fabricated data discussed in this report.
    26 There is no indication in the program jacket of when the replacement versions of B and C were
received and placed in the jacket.
    26 See Tab 13 for a discussion of the scientific aspects of these allegations.
    27 The different interpretations of one experimental parameter is described in the asterisk
"Control" comments in each version.


                                             Pg. 7
    The allegations were that Table 2 contained fabricated data. Specifically, it was
alleged that thesubject fabricated data in two ways in Table 2. First, three rows
that represented material presumably used in experiments. The allegedly
fabricated data sets were the                   fragment, the
fragment, the                  fragment, and data associated with those fragments
in each respective row. The          was present in all versions of Table 2 (as row
I), and        (row 3) and       (row 6) appear in versions B and C. Second, an
entire column which represented data from an experiment that was not performed.
    The subject provided three different, inconsistent explanations addressing the
allegations of data fabrication. The subject's first response was a November 10,
1997,letter,28 and his second, a December 3, 1998,1etter29in response to questions
raised by a scientist in the field whom we asked to examine the allegations.30 His
third response occurs in an affidavit taken during our March 8, 1999, interview.31
In his letters and his affidavit, the subject said he had obtained the data reported in
Table 2 from a visiting scientist (the VS) who had worked in his laboratory. He said
he could not document the questioned data because the VS had taken his laboratory
records with him when he left. We interviewed the VS who told us the subject had
all of his laboratory notebooks.32



   The subject initially told us "that I did not perform the experiments that lead to
the data used to generate Fimre 7 and Table 2 in the grant application. These data
resulted from experiments that were performed by" the VS.33 The subject said the
"data used to generate Table 2 is contained in [the VS's] primary laboratory
notebook (see attached laboratow notebook, pages 09-011) as well as in the progress
report that [the VS] was forced to provide after leaving my laboratory."34 The
subject said "Table 2 [was] prepared by me after lengthy discussions with [the VS]
about the experimental data obtained."35 He said any inaccuracies Table 2 were the
result of his trust in the accuracy of data provided by the VS.
    The scientist did not find documentation in '[the VS's] notebook for any of the
allegedly fabricated data described in Table 2. He noted that those data could not

    28 Tab 11. With his letter, the subject provided us with the visiting scientist's (the VS's)
laboratory notebook that was related to the research in the proposal.
    29 His letter was in response to our November 20, 1998, questions Goth in Tab 14). With his
second letter, the subject provided notebooks used by a graduate student in the subject's laboratory.
The date of the notebooks indicated all of the graduate student's results were obtained after the
proposal was submitted and funded. Thus, they are not exculpatory for the data in the proposal.
    30 The scientist analyzed the subject's notebook and responses. His comments are under Tab 15.
    31 The subject's affidavit is under Tab 16.
    32 We interviewed the VS to get his interpretation of the data on February 11, 1999. His
affidavit summary is under Tab 17.
    33 Tab 11, pg. 4 (underlining in original).
    34 Ibid., pg. 5.
    36 Ibid.



                                             Pg. 8
be prepared by the techniques described in theVS's laboratcky notebook and one of
them could not be created by the experimental method described in the 1995
proposal.36
    When asked about the scientist's analysis, the subject, in his second response,
argued that: (1) mistakes could have been made entering or interpreting the data
and (2) the experimental data that supports the data in the proposal is unavailable.
The subject stated numerous times in his second response that Table 2 was created
from information provided by the VS,37 and that it was possible that mistakes were
made by either the VS or by him in either interpreting or entering the data into the
table.38 The subject suggested the additional        and          data were possibly
created by mathematical manipulation of existing data.39 He simultaneously
suggested those two data sets "could have resulted from a mistake or unintentional
error in the transcription of data andlor information presented by [the VS]."40
     The subject proffered two different reasons why the documentation supporting
the questioned data in the proposal was unavailable. He claimed that "information
. . .was provided to me in schematic form by" the VS and there were problems
verifying the data "because much of [the VS's] data was not written-up in [the VS's]
laboratory notebook.41 He also said "the original protocols, data, and one of [the
VS's] laboratory notebooks used to generate data in Table 2 we're removed from my
office by" the VS.42,43
   In his affidavit, the subject addressed the allegedly fabricated data in light of,
evidence that contradicted his various statements about its authenticity. He said
he
         agreed . . . that the data about the                  ,
         and                    cannot be created using the experimental protocols
         used in my laboratory. After receiving [OIG's] letter I reviewed the
         data and independently concluded that these fragments and the data
         could not exist. . . . When I assigned the pluses and minuses in Table 2
         vast two columns], it was based on [results] that I personally
         examined. However, I cannot recall why I included the fragments
         (                                   and                 ) and data about



    36  Tab 15.
    37  Tab 14,pp. 3, 4, 5, and 7.
    38 Ibid.,pp. 4,5, and 6.
    39 Ibid.,pg. 5. See Tab 18 for an explanation of the mathematical manipulation described by the
subject. Although this could explain how the false fragments were derived, it in no way subtracts
from the fact that the              and              fragments and associated data never existed.
    40 Tab 14, pg. 3.
    4 1 Ibid.
    42 Tab 14,pg. 3. Bold emphasis omitted.
    43 The VS told us that when he left the subject's laboratory, he turned in his letter of resignation
and his key to the laboratory, thus refuting the subject's account. Tab 17.


                                              Pg. 9
        them, including the pluses and minuses in my proposal Table 2 when
        the fragments cannot be made and the [results] did not exist.44



    In addition to three rows of data discussed above, the data in the "             "
column in Table 2 representing the results of a              experiment were
allegedly fabricated. The scientist "did not find documentation in [the VS's]
notebook for a              experiment such as that described in Table 2."45
                                                              A




   The subject explained that the experiment for determining "                 "
        was commonly performed by students working on the . . . project.
        There is no documentation in [the VS's] notebook or his summary to
        indicate            experiments were described because after
        performing the experiments, he did not transfer the raw data to his
        notebook; he kept them in the laboratory data and protocol file
        folders.46
   The subject also described the experiment performed. He told us he believed
that statements in another graduate student's laboratory notebook
        indicate[d] that [the VS] did in fact carry out a n experiment that yields
                     . It is my contention that [the experiment I described] will
        provide information equivalent to a                 experiment [under
        certain conditionsl.47
However, the scientist told us that experiment was not equivalent to a
experiment and would not yield the data presented in Table 2. The VS
independently stated that the experiment described by the subject "does not give
        "48 The VS said he did
        not know where [the subject] got those numbers [the            data]
        from. [The VS] never did a              experiment. The numbers in
        that column are not from any research that [the VS] did.49
   Based on the scientist's analysis,' the absence of any supporting data in the VS's
noFebook, the VS's statements, and the subject's admission that he conducted an
experiment "equivalent" to a                experiment, we do not find the subject's
explanation of the column of data in Table 2 (part (ii))credible.




   44 Tab 16, pg. 3.
   45 Tab 15, pg. 2.
   46 Tab 14, pp. 6-7
   47 Tab 16, pg. 4.
   48 Tab 17.
   49 Ibid..



                                        Pg. 10
               Conclusion Regarding;Misconduct in Science
   NSF defines misconduct in science, in relevant part, as "[flabrication,
falsification, plagiarism, or other serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities funded by NSF' (45
C.F.R. 5 689.1(a)(l)). A finding of misconduct in science against a subject requires
that the subject both committed a bad act and did so with a level of culpable intent
that justifies taking action against the subject. In order to make a finding of
misconduct, the subject must have acted, minimally, with gross negligence. NSF's
standard of proof in evaluating each element of misconduct in science is a
preponderance of the evidence.


                                                The Act
    A preponderance of the evidence shows that the subject misrepresented his
publication record by listing seven manuscripts60 as "in press" in two proposals and
a Progress Report he submitted to NSF. The University's and our analysis of these
publications showed that none of them were submitted when the subject claimed
they were "in press." There is no evidence that three of the seven exist even now as
publications, nearly 4 years after they were listed as "in press."
    A preponderance of the evidence shows the subject fabricated three rows of data,
representing the fragments and their associated data. The subject's admission that
the data could not exist, the VS's statements and supporting documentation, a lack
of supporting experimental evidence in the laboratory notebook, contrary
experimental evidence in the notebook, and the scientist's analysis of all the above,
support the allegation that the subject fabricated three fragments and their
associated data.
    A preponderance of the evidence shows the subject fabricated the entire column
of data corresponding to the results of a           experiment (on all the
fragments listed in Table 2). The subject's explanation of "equivalent" experiments,
the VS's and the scientist's statements, together with the lack of supporting
experimental evidence in the laboratory notebook, support the allegation that the
subject fabricated the results of a            experiment.
   Based on our interviews with the subject and the VS, together with the existing
documentation and the scientist's comments, we do not find the subject's
explanations credible. The VS's statements were supported by the laboratory
notebook and the scientist's analysis.




   50   One in the PYI proposal plus six in the 1995 proposal.


                                              Pg. 11
                              a          Intent
    We believe the subject acted knowingly when he misrepresented his publication
record by listing manuscripts as "in press" in his NSF proposals that either did not
exist or had not been submitted. Because the manuscripts minimally must exist
and be submitted before they can be "in press," we believe the subject's
misrepresentation of nonexistent manuscripts as "in press" was knowing. It is
important to note that in the PYI proposal, as well as in PYI Progress Reports, the
subject differentiated between manuscripts that he had submitted and those he had
not, demonstrating that he was aware of the distinction between those citations.
That the subject's actions were knowing is supported by the sheer number of the
false citations, and the variety of ways in which he cited them belies his assertions   t



that his errors were clerical or the result of cutting and pasting.
   We believe the subject acted knowingly when he fabricated three fragments and
their associated data and when he fabricated data from a n experiment that was not
performed. Because the data could not have been created by the standard
techniques employed in the subject's laboratory, were not in the primary laboratory
notebook for this project, anddifferent data were included on different versions of
Table 2, we believe the subject knowingly included fabricated data in his proposal.


                                       Seriousness
    A PI'S publication record might likely indicate to proposal reviewers an active
program with many students, and could be a factor in their recommendations, even
if it is not explicitly mentioned on the reviews. Conversely, lack of publications
could indicate a weak research program or one that did not allow students a n
opportunity to publish, neither of which are desirable. By misrepresenting his
publication record, the subject presented NSF and its reviewers misleading
information about his research activities. As evidence of this, we note that one
reviewer commented that
         The PI has been moderately productive in recent research . . . .
         However, the recent productivity, as indicated by the papers "in press,"
         has been quite good. This suggests that he has overcome this lag and
         that the research is now moving forward a t a good clip.51
This misrepresentation seriously deviated fiom the accepted practice of his
scientific community, and also from what NSF expects from its PIS, and skews the
information NSF's reviewers are presented with to make a decision about whether
the PI and the proposal warrant funding.
   The subject's inclusion of fabricated data in his proposal represents a serious
deviation from the accepted practice in every field of science and engineering and


   61   Tab 19; quote marks added.


                                        Pg. 12
distorts the research record.62 If the subject's proposal had been declined, the
proposal would have only been seen by the proposal's reviewers and NSF's PM, and
the research record only minimally effected. Because the subject's proposal was
funded, the distortion of the research record could be amplified because of public
access through the Freedom of Informatibn Act.


                                     Evidence of a Pattern
   The subject first misrepresented his publication record in two places in his PYI
proposal. He included false citations in two places in a PYI Progress Report and in.
three places in his 1995 proposal. These 16 misrepresentations occurred over a
period of several years. We agree with the .University that the subject's actions
suggest a pattern of misrepresenting his publication record.
   The subject first fabricated data in version A of Table 2. He continued to
misrepresent the fabricated data as authentic, and compounded his actions by
adding more fabricated data sets, in versions B and C.


   Based on a preponderance of the evidence, we conclude that the subject
misrepresented his publication record by listing manuscripts as "in press" that were
not, and that he fabricated data. We believe the evidence demonstrates that the
subject acted knowingly, and we believe his actions represent a pattern of
deception. We conclude that each of the subject's acts-misrepresentation of his
publication record and fabrication of data-are misconduct in science.



                                  The Subject's Response
   The subject's response (Tab 20) to the draft investigation report did not present
new arguments that addressed the substance of the allegations; instead it
addressed the role of the University administrators and the relevance of the
recommendations. In discussing the mi~re~rksentation      allegation, the subject
agreed that "informational errors" occurred in his proposal, but wrote that his PM
had told him that manuscripts listed in any form, other than officially being
published (i.e., having a journal volume and page numbers), were not to be used by
reviewers; "therefore, do not worry about it." As noted in fn. 10, the PM told us she
did not recall any details of any conversations with the subject on this matter.63
Regarding the data fabrication allegation, the subject said he accepted
"administrative responsibility" for the fabricated data, but immediately blamed the

   52 See, for example, M.C.LaFollette, Op. Cit. (fn. 20), pp. 42-47.
   53 We  note that any use reviewers or POs may make of information in a proposal is distinct from
NSF's overall reliance on and expectation that the information in it is accurate, and the author's'
obligation to ensure that accuracy.


                                            Pg. 13
    VS, claiming the VS fabricated it and removed the supporting data files after being
    dismissed. We found this explanation unsatisfactory as it ignored the. VS's and the
    scientist's statements, as well as his own admissions during our interview that the
    data could not exist (Tabs 17, 15, and 16, respectively). His explanation is also
    inconsistent with the data recorded in the VS's laboratory notebook. Finally, the
    subject also contradicted both the VS's and his own statements, made during our
    interviews, in which each stated that the VS resigned; he was not dismissed (Tab
    17).
       The subject believed the University, as grantee, should share the blame for the
    "informational errors" in his proposal. He said his proposal was reviewed by several
    administrators, and if these administrators had taken responsibility for the
    proposal, the "informational errors" would have been caught, and this investigation
    would have never taken place. However, as indicated by the certifications on the
    NSF Cover Page, it is the PI, not the university, who is responsible for the accuracy
    and completeness of the content in the proposal. Only hypotheses and opinions are
    excluded from the PI'S certification of the accuracy of the proposal contents.
    Representations a PI chooses to make about publications and data are expected to
    be accurate, not fabricated. Such information is reliable known only to the PI and
    could be certified to by universities only after detailed data audits and review
    efforts, which to our knowledge, no university subjects its faculty to. Separately,
    university officials certlfy to the administrative responsibility of a limited set of,
    principally financial, issues.
       The subject also objected to the assurances we recommended NSF require from
-
L
'
    his current university. He believed they should be required from his former
    university, as the grantee where the misconduct occurred. However, the
    recommendation is designed to ensure the implementation of review procedures
    which will protect future federal government interests. With regard to the subject's
    current funding and future submissions, it can only be secured from, and is only
    relevant to, his current place of employment.
       In our draft report, we recommended that NSF prohibit the subject from serving
    as a panelist for a period of 3 years. The subject argued that he has the experience,
    knowledge,,and scientific insight to carry out the duties of being a panelist, and that
    he had served as an honorable panelist. Given that his misconduct was not directly
    related to any panel actions, and that his PM apparently finds his input beneficial,
    we have dropped this recommendation.
        The subject spent a considerable portion of his response discussing what he
    characterized as racial bias on the part of the University. He believes the
    University persecuted him because of his race, and that by investigating the
    allegations raised against him, we are supporting the University's actions. We note
    that our investigation is independent of the University's investigation, and
    considered more and different issues.




                                           Pg. 14
                             RECOMMENDED DISPOSITION
   Under 45 CFR § 689.2(b)of NSF's'misconduct in science and engineering
regulation, when deciding what actions are appropriate when misconduct is found,
NSF officials should consider the seriousness of the misconduct, the intent with
which the subject acted, any evidence of a pattern, and finally, its relevance to other
funding requests or awards involving the university or the individual.
    We conclude the subject knowingly included false citations and fabricated data
in his submissions to NSF. This behavior is a serious deviation from the practices
of both the subject's research community as well as the broader scientific
community, and it violated NSF's expectation that proposals be prepared with all
the care afforded a scientific paper. The subject's repeated misrepresentations and
fabrications are representative of a pattern of disregard for the integrity of the
scientific record.
    The subject's responses demonstrate he does not accept responsibility for his
actions. He misled the Inquiry Panel about his attempts to correct his publication
record in his proposals with NSF. He blamed the department's administrative staff
for the inclusion of "errors" in his citations, and ultimately, blamed the DH and the
University for persecuting him by trying to resolve the discrepancies in his various
documents. He fabricated three rows and one column of data in his proposal.
Rather than cooperate with his university in resolving the allegations, he took all
the evidence and left the University. He ostensibly agreed to cooperate with our
investigation, but he gave conflicting statements about the proposal and data, and
again, blamed others. He said the VS provided him with the data that was
fabricated, while simultaneous acknowledging the data could not have been created
by the VS. He said the University itself had possibly created version A to persecute
him. While the subject has made some statements acknowledging the wrongdoing,
we believe his misrepresentations and fabrications manifest a lack of present
responsibility.
   As a continuing recipient of NSF funds," it is incumbent upon the subject to
ensure that the high scientific standards expected by his research community and
NSF are upheld and that the research record not be corrupted. We believe the
subject's actions and statements demonstrate a lack of responsibility an NSF PI is
expected to exercise in his research. Therefore, we recommend NSF:
(a) send a letter of reprimand to the subject informing him that NSF has made a
    finding of misconduct in science against him;55 and
(b) debar the subject for 1 year from the final disposition of this case.56


   64 The subject has a current         award           and two amendments.
   55 This is a Group I Action (5 689.2(a)(l)(i)).
   66 This is a Group I11 Action (5 689,2(a)(3)(ii)).




                                               Pg. 15
So that the subject can demonstrate his understanding of community and NSF
standards of research, and we propose the following actions to be taken to protect
NSF's interests. We recommend NSF:
(c) require the subject, for 3 years from the final disposition of this case, to certlfy
    that any documents he submits to NSF are, to the best of his knowledge (after
    appropriate inquiry), factually correct and contain no fabricated publications or
    data;s7 and
(d) require the subject, for 3 years from the final disposition of this case, to obtain
    an assurance from his supervisor that any documents the subject submits to
    NSF are, to the best of his knowledge (after appropriate inquiry), factually
    correct and contain no fabricated publications or data.58
The subject's certifications and his supervisor's assurances should be-sent to OIG
for retention in its confidential file on this matter.




   67   This is a Group I1 Action (§ 689.2(a)(2)(ii)).
   68   This is a Group I Action (5 689.2(a)(l)(iii)).


                                                 Pg. 16
